                                                              Issue Date
                                                                  September 20, 2010
                                                              Audit Report Number
                                                                  2010-PH-1013




TO:        William D. Tamburrino, Director, Baltimore Public Housing Program Hub,
            3BPH
           //signed//
FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
            3AGA

SUBJECT:   The Housing Authority of Baltimore City, MD, Generally Administered Its
           Recovery Act Capital Fund Grants in Accordance With Applicable
           Requirements


                                 HIGHLIGHTS

 What We Audited and Why

           We audited the Housing Authority of Baltimore City’s (Authority) administration
           of its Public Housing Capital Fund grants that it received under the American
           Recovery and Reinvestment Act of 2009 (Recovery Act). We selected the
           Authority for audit because it received a $32.7 million formula grant, which was
           the largest formula grant awarded in the State of Maryland. Our objective was to
           determine whether the Authority administered capital funds provided under the
           Recovery Act according to the requirements of the Recovery Act and applicable
           U.S. Department of Housing and Urban Development (HUD) rules and
           regulations.

 What We Found


           The Authority generally administered its grant funds in accordance with the
           requirements of the Recovery Act and HUD rules and regulations. It obligated
           grant funds within the established deadline, complied with applicable
           procurement requirements, generally maintained documentation to support
           expenditures of grant funds, and generally calculated and reported job count
           information in accordance with Recovery Act guidance. However, it did not
           always record transactions in its general ledger correctly.


What We Recommend

           We recommend that HUD require the Authority to strengthen its controls for
           maintaining documentation to support cell phone expenditures and recording
           transactions in its general ledger, and track the performance of its energy
           conservation program, report performance annually, and identify funds it will use
           to repay the funds it borrowed to implement energy conservation measures if the
           projected savings from implementing the measures are not realized.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided a discussion draft audit report to the Authority on August 27, 2010,
           and discussed it with the Authority at an exit conference on September 9, 2010.
           The Authority provided written comments to the draft audit report on
           September 14, 2010. The Authority agreed with the conclusions and
           recommendations in the report. The complete text of the Authority’s response
           can be found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS


Background and Objective                                                        4

Results of Audit
      Finding: The Authority Generally Administered Grant Funds in Accordance   5
      With Applicable Requirements.

Scope and Methodology                                                           9

Internal Controls                                                               10

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use            12
   B. Auditee Comments                                                          13




                                            3
                          BACKGROUND AND OBJECTIVE

The Housing Authority of Baltimore City (Authority) was organized in 1937 under the laws of
the State of Maryland to provide federally funded public housing programs and related services
for Baltimore’s low-income residents. The Authority owns 28 family developments, 17 mixed
population buildings, 2 senior buildings, and a number of scattered-site housing units throughout
the city. A five-member board of commissioners, appointed by the mayor, governs the
Authority. The board appoints an executive director to administer the affairs of the Authority.
The current executive director is Paul T. Graziano. He is also the city’s housing commissioner.

In March 2005, the Authority entered into a Moving to Work agreement with the U.S.
Department of Housing and Urban Development (HUD) for a 7-year term commencing on
July 1, 2005. Moving to Work is a national demonstration program established by Congress that
allows public housing agencies to develop and implement innovative and flexible solutions to
local housing needs. The Authority is 1 of 32 agencies nationwide to be given broad latitude to
establish locally determined policies and procedures outside the HUD regulatory framework. In
December 2008, HUD and the Authority agreed to extend the Authority’s Moving to Work
agreement to the end of the Authority’s fiscal year 2018. 1

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009 (Recovery Act). This legislation included a $4 billion appropriation of capital funds to
carry out capital and management activities for public housing agencies as authorized under
section 9 of the United States Housing Act of 1937. The Recovery Act requires that $3 billion of
these funds be distributed as formula grants and the remaining $1 billion be distributed through a
competitive process. HUD awarded the Authority a total of $66 million 2 in Recovery Act capital
funds. Transparency and accountability were critical priorities in the funding and
implementation of the Recovery Act. The Recovery Act imposed additional reporting
requirements and more stringent obligation and expenditure requirements on the grant recipients
beyond those applicable to the ongoing capital fund program grants.

Our objective was to determine whether the Authority administered capital funds provided under
the Recovery Act according to the requirements of the Recovery Act and applicable HUD rules
and regulations.




1
 June 30, 2018, is the end of the Authority’s fiscal year 2018.
2
 $66 million = $32.7 million in formula grant capital funds awarded in March 2009 and $33.3 million in 11
competitive capital fund grants awarded in September 2009.

                                                        4
                                RESULTS OF AUDIT

Finding 1: The Authority Generally Administered Grant Funds in
Accordance With Applicable Requirements
Overall, the Authority administered its grant funds in accordance with the requirements of the
Recovery Act and HUD rules and regulations. It obligated grant funds within the established
deadline, complied with applicable procurement requirements, generally maintained
documentation to support expenditures of grant funds, and generally calculated and reported job
count information in accordance with Recovery Act guidance. However, it did not always record
transactions in its general ledger correctly, and its estimated savings for proposed energy
conservation improvements at its public housing developments may be overstated.




 The Authority Met the
 Required Obligation Deadline
 for Its Formula Grant

              Under the Recovery Act and HUD Office of Public and Indian Housing (PIH)
              Notice PIH 2009-12, the Authority was required to obligate 100 percent of its
              formula grant by March 18, 2010. The Authority met this requirement. The
              Recovery Act and HUD Notice PIH 2009-12 also required the Authority to
              expend at least 60 percent of the grant by March 18, 2011. The Authority had
              expended more than $10.0 million or 30 percent of its grant as of July 12, 2010.

 The Authority Generally
 Procured Goods and Services in
 Accordance With Applicable
 HUD Requirements


              The Authority generally followed HUD procurement regulations and guidance.
              For example, it

                  •   Amended its procurement policy as required by HUD Notice PIH 2009-12
                      to expedite and facilitate the use of grant funds by making State and local
                      laws and regulations inapplicable for Recovery Act grants.

                  •   Awarded contracts competitively in accordance with 24 CFR (Code of
                      Federal Regulations) 85.36 and HUD Handbook 7460.8, REV-2. The
                      Authority advertised and competitively awarded contracts and had sufficient
                      documentation to support the procurements.

                                               5
              •   Complied with HUD guidance for implementing the “buy American”
                  requirement of the Recovery Act in HUD Notice PIH 2009-31.

The Authority Generally
Maintained Documentation to
Support Formula Grant
Expenditures and Recorded
Transactions in Its General
Ledger Correctly

           The Authority’s expenditures of formula grant funds were generally supported by
           adequate source documentation, and transactions were generally recorded in the
           general ledger correctly. We reviewed documentation and transactions supporting
           $316,923 in formula grant expenditures. The costs were eligible under the capital
           fund program. The Authority maintained documentation such as invoices and
           approved requests for periodic partial payments to support the disbursements.
           However, it did not maintain detailed phone call information to support a cell
           phone reimbursement, contrary to its cell phone policy, and it erroneously
           charged $19,263 for asbestos abatement to a Recovery Act project. We brought
           these issues to the Authority’s attention, and it obtained the detailed phone call
           information and created an adjusting entry to transfer the costs to the correct non-
           Recovery Act project account.

The Authority Generally
Calculated and Reported
Correct Job Count Information

           Initially, the Authority did not calculate job count information in accordance with
           Office of Management and Budget (OMB) job reporting guidance, but it revised
           its procedures for calculating job count information to comply with OMB
           guidance in February 2010. As a result, the Authority correctly calculated and
           reported its job count information beginning with the period ending December 31,
           2009. Since the Authority revised its procedures and correctly calculated job
           count information, it avoided overstating its job count information by 268 jobs.

The Authority’s Estimated
Savings From Competitive
Grant-Funded Energy
Conservation Measures May Be
Overstated


           The Authority received $33.3 million in competitive capital fund grants in
           September 2009. To augment the grants, the Authority leveraged $51 million

                                            6
from an outside source to make energy conservation improvements at its public
housing developments. The leveraging of funds was a critical element in the
process of awarding competitive Recovery Act grants because it was used for tie-
breaking purposes; essentially, the higher the percentage of leveraged funds, the
greater the chance for a grant to be awarded. The Authority leveraged funds as
required. It intends to pay back the leveraged funds over a 20-year period from
savings it expects to realize from making the energy conservation improvements.

The Authority’s estimated savings projection of more than $51 million over a 20-
year period may not be realized. Although the Authority’s energy conservation
measures will result in energy savings and utility cost reductions, there are many
factors that will affect the amount of the savings. Some of the factors can be
controlled by the Authority, such as proper maintenance of the new equipment
and reduction of waste by monitoring consumption, preventive maintenance, and
timely repairs of equipment. Other factors are beyond the Authority’s control,
such as lack of tenant cooperation and compliance with conservation measures.
We reviewed the Authority’s calculations for its projected savings and have
concerns about extraordinary maintenance and replacement issues. For example,
as equipment ages, some of it, such as boilers, requires periodic cleaning of fire
tubes and burners, as well as maintaining the lines, valves, traps, and other
components. Other costs, such as replacing specialty light bulbs, should have
been included in the Authority’s analysis because it would reduce the projected
savings. The Authority informed us that to address these issues, it is developing a
maintenance and replacement plan and a utility consumption and management
system to address the controllable factors. It also informed us that it plans to
implement resident training programs and to bill residents for excessive
consumption charges.

The Authority is operating under a Moving to Work agreement, which expires in
June 2018. The Authority’s agreement, dated December 24, 2008, permits it to
pledge its reserves or other funds for use during the term of the Moving to Work
agreement to guarantee the payment of debt service in the event that projected
energy savings are not adequate to cover the debt service costs for an energy
conservation project undertaken during the term of the agreement. However, the
Authority is just beginning its energy conservation projects, and the amount of
Moving to Work reserves or other funds that may be needed to cover the debt
service in the event that the projected savings are not realized cannot be
determined. The Authority indicated that it mitigated the potential risk in its
savings estimate by using a savings level that was 24 percent less than its energy
service company recommended and that it will negotiate with utility companies
for a more favorable energy rate. However, we have concerns that the estimate
may be overstated. To ensure that the potential overstatement of the savings
estimate does not become a problem the Authority should monitor the
performance of its energy conservation program against its projection and ensure
that appropriate funds are available to cover the debt service if the energy savings
are not realized as projected.

                                  7
    Conclusion


                    The Authority generally administered its grant funds in accordance with the
                    requirements of the Recovery Act and HUD rules and regulations. However, the
                    Authority needs to strengthen its controls for maintaining documentation to
                    support cell phone expenditures and recording transactions in its general ledger.
                    Because of our concern regarding the potential risk associated with the energy
                    conservation measures, the Authority needs to maintain documentation to track
                    the performance of its energy conservation program, report performance annually,
                    and identify funds it will use to repay the funds it borrowed to implement energy
                    conservation measures if the projected savings from implementing the measures
                    are not realized.

    Recommendations



                    We recommend that the Director of the Baltimore Office of Public Housing
                    require the Authority to

                    1A.      Adjust its books to properly record $19,263 in costs to the correct non-
                             Recovery Act project account. 3

                    1B.      Strengthen its controls for maintaining documentation to support cell
                             phone expenditures and recording transactions in its general ledger.

                    1C.      Maintain documentation to track the performance of its energy
                             conservation program, report energy conservation performance annually in
                             accordance with its Moving to Work agreement, and identify the funds to
                             be used to repay the leveraged funds if the projected savings are not
                             realized.




3
    The Authority took corrective action during the audit regarding this recommendation.

                                                           8
                         SCOPE AND METHODOLOGY

We conducted our onsite work from October 2009 through May 2010 at the Authority’s main
office located at 417 East Fayette Street, Baltimore, MD, and at our offices located in Baltimore,
MD, and Richmond, VA. The audit covered the period February 2009 through January 2010 but
was expanded when necessary to include other periods.

To achieve our audit objective, we

   •   Obtained relevant background information;

   •   Reviewed the Recovery Act;

   •   Reviewed Office of Management and Budget guidance for implementing the Recovery
       Act;

   •   Reviewed applicable HUD rules, regulations, and guidance;

   •   Reviewed the Authority’s procurement activities;

   •   Reviewed the Authority’s competitive grant applications and support for projected energy
       cost savings that it expected to realize from making energy conservation measure
       upgrades in its public housing units;

   •   Reviewed documentation supporting six expenditures totaling $316,923;

   •   Interviewed relevant Authority staff;

   •   Interviewed officials from HUD’s Office of Public Housing Investments, and Baltimore
       Office of Public Housing; and

   •   Visited several properties being renovated or scheduled for renovation using Recovery
       Act funds.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. The audit included tests of internal controls that
we considered necessary under the circumstances.




                                                9
                              INTERNAL CONTROLS

Internal control is a process adapted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

               •   Effectiveness and efficiency of operations – Policies and procedures that
                   management has implemented to reasonably ensure that a program meets its
                   objective.

               •   Reliability of financial data – Policies and procedures that management
                   implemented to reasonably ensure that payments to contractors/vendors were
                   made in accordance with applicable requirements

               •   Compliance with laws and regulations – Policies and procedures that
                   management implemented to reasonably ensure that resource use was
                   consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing
               their assigned functions, the reasonable opportunity to prevent, detect, or correct
               (1) impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on
               a timely basis.



                                                10
Significant Deficiency


            We evaluated internal controls related to the audit objective in accordance with
            generally accepted government auditing standards. Our evaluation of internal
            controls was not designed to provide assurance on the effectiveness of the internal
            control structure as a whole. Accordingly, we do not express an opinion on the
            effectiveness of the Authority’s internal control.




                                            11
                                       APPENDIXES


Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE


                              Recommendation            Funds to be put
                                  number                to better use 1/

                                       1A                    $19,263 (1)
             (1) The Authority took corrective action during the audit and achieved this benefit.




1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, the Authority took action to correctly
     record an expenditure of $19,263 on its books and avoid charging ineligible costs to its
     Recovery Act grant.




                                                   12
Appendix B

             AUDITEE COMMENTS




                    13
14
